                            OFFICE OF INSPECTOR GENERAL 

                         BOARD O F GOVERNORS O F THE F E D E RAL R E S E RVE SYSTE M 


                               CONSUMER FINANCIAL PROTECTION BUREAU 





March 29 , 2013

MEMORANDUM

TO:            Donald Hammond
               Chief Operating Officer

               Michell Clark
               Director, Management Division

FROM:          Cynthia Gray   ~· ~
               Senior OIG Manager for Financial Management and Internal Controls

SUBJECT:       OIG Report No. 2013-AA-B-007: Audit Observations on the Board' s Planning
               and Contracting Process for the Martin Building Construction, Renovation, and
               Relocation of Staff


Introduction

As referenced in our announcement letter, dated April23 , 2012, we have been conducting an
audit survey of the Board' s planning and contracting process for the William McChesney
Martin, Jr. , Federal Reserve Board Building (Martin Building) construction and renovation
project and relocation of staff. We conducted the survey to gather information on, and to gain an
understanding of, the current status of the Martin Building construction and renovation, the space
planning process, and leasing policies and procedures to identify potential areas for audit. We
reviewed relevant policies and procedures, contract files , and other pertinent documentation. We
also interviewed various Board officials involved in the Martin Building construction,
renovation, space planning, and leasing process.

Based on our audit survey work, we plan to issue a formal announcement letter shortly with
specific audit objectives concerning the overall project ' s cost estimates. In the interim, we
would like to share our observations concerning claims associated with the architectural and
engineering (A/E) contract for the Martin Building construction and renovation project for
increases in contractor labor rates due to project delays.
Messrs. Hammond and Clark                            Page 2 of 5	                                   March 29, 2013


Background

The Martin Building construction and renovation project is one of the Board’s largest contracting
efforts and comprises three interrelated construction and renovation initiatives: (1) construction
of a new visitors’ center, (2) construction of a conference center, and (3) renovation of the
Martin Building. The concept for the project began shortly after the events of September 11,
2001, and was initially planned as a visitors’ center that would address the need for heightened
security at the Board. Since the original concept was developed, the project has gone through a
lengthy design phase, primarily due to significant scope changes.


Visitors’ Center and Conference Center

In August 2005, the Board issued the solicitation, offer, and award (SOA) for an A/E contract
solely for the design of the visitors’ center. In February 2006, this SOA was reissued to include
design work for a conference center. In October 2006, after a competitive bid and evaluation
process, the contract to design both the visitors’ center and the conference center was awarded to
an A/E firm at a total cost of $1.68 million with an anticipated completion date of July 2007.
However, the contract was subsequently modified in June 2007 to add additional design services
and the anticipated completion date was extended to December 2007.



Martin Building Renovations

In December 2007, Management Division officials determined that the design and construction
of the visitors’ center and the conference center should take place concurrently with needed
renovations to the Martin Building. In March 2008, the Management Division advised the
Committee on Board Affairs (CBA) of the opportunity to combine the Martin Building
renovation with the visitors’ center and conference center project. 1 During the spring and
summer of 2008, the Management Division studied leasing additional space for purposes that
included providing swing space for the Martin Building renovation. In September 2008, the
Management Division submitted a memorandum through the Board’s Legal Division to the then
chair of the CBA to include the Martin Building renovations in the existing A/E contract. The
then chair of the CBA approved the memorandum within the same month.




1.	 The CBA is responsible for providing oversight of the Board’s planning and budgetary process; coordinating
    the work of the oversight committees as they plan and budget for their particular areas of oversight; presenting a
    plan and budget to the Board for discussion and decision; monitoring budget formulation and planning
    execution over the budget cycle; providing planning guidance where appropriate; and providing oversight of the
    Management Division and Division of Information Technology.
Messrs. Hammond and Clark                           Page 3 of 5	                                  March 29, 2013


Exterior Design Approvals from the Commission of Fine Arts and the National Capital
Planning Commission

In December 2008, the CBA gave the Management Division approval to submit the exterior
design concepts of the visitors’ center and conference center to the Commission of Fine Arts
(CFA) and the National Capital Planning Commission (NCPC). 2 The Board submitted these
design concepts to both the CFA and the NCPC and obtained their approvals in November 2009
and February 2010, respectively.


Martin Building Renovations Modifications

In February 2011, the Board’s Procurement section modified the contract to include the design of
the Martin Building renovations after negotiations with the current A/E firm. This modification
significantly increased the total estimated cost of the A/E design work, by $10.41 million, and
stated that the A/E firm was expected to complete the design services for the Martin Building
renovations, as well as the remaining design services for the visitors’ center and conference
center, “within 475 working days of the execution of this modification,” indicating that
completion was expected in December 2012. Further, this modification stated that “commencing
October 1, 2011, the contractor’s hourly rates shall be adjusted for all labor categories by a
maximum of 4.0 percent annually for the duration of the Contract.”

In June 2011, the A/E contract was modified again; this modification added services to the A/E
contract that were previously planned to be completed by Board staff. This modification pushed
the completion date for all design services to May 2013.

In October 2011, the then Director of the Management Division verbally instructed the Board’s
project team to slow the pace of the work while the Board discussed a range of options for the
approach to the Martin Building renovations proposed by the Board’s project team. 3 The
decision to conduct a comprehensive renovation of the Martin Building that would include
construction of the visitors’ center and conference center, as well as the associated budget, was
approved as part of the Board’s strategic planning process in June 2012. However, a further
delay resulted from the need to decide which divisions would return to the Martin Building after
completion of the construction and renovations, as this decision would impact the design. As of



2.	 The CFA, established in 1910 by an act of Congress, is charged with giving expert advice to the President,
    Congress, and the heads of departments and agencies of the federal and District of Columbia governments on
    matters of design and aesthetics as they affect the federal interest and preserve the dignity of the nation’s
    capital. The NCPC is the federal government’s planning agency for the national capital region. The 12-
    member commission meets monthly to adopt, approve, or provide advice on plans and projects that impact the
    nation’s capital and surrounding areas.

3.	 The range of options included (1) no renovation or refreshment of the Martin Building, (2) a 10-year floor-by-
    floor refreshment of the Martin Building that would not include the construction of a visitors’ center and
    conference center or many of the upgrades to improve energy efficiency, and (3) a comprehensive renovation
    that would include the construction of conference and visitors’ centers.
Messrs. Hammond and Clark                   Page 4 of 5	                            March 29, 2013


February 2013, the Board’s project team schedule showed that the completion of all design
services is expected in April 2015.


OIG Observations

Past Claims Paid

The A/E contract, as originally awarded for the design of the Martin Building visitors’ and
conference centers, included an anticipated completion date of July 12, 2007. Due primarily to
scope changes initiated by the Board, the A/E firm worked beyond this date and subsequently
submitted two claims to cover increased costs in its hourly labor rates. After negotiations with
the A/E firm that reduced these claims by $28,412, the Board paid the claims at a total cost of
$139,165:

   •	 The first claim, totaling $26,763, was processed in 2009 to cover the increase in labor
      rates for the period July 13, 2007, through April 20, 2009.

   •	 The second claim, totaling $112,402, was processed in 2010 to cover the increase in labor
      rates for the period April 21, 2009, through December 31, 2009.


Current Claim

As noted above, we identified that the design services included in the February 2011 A/E design
modification were originally expected to be completed in December 2012. The June 2011 A/E
design modification, which included additional A/E services, pushed the anticipated completion
date to May 2013. As a result of further Board delays, these design services are now not
expected to be completed until April 2015. In March 2013, the A/E firm submitted an additional
claim which is being reviewed by the Board.


Future Concerns

We are highlighting these observations for management attention as lessons learned while the
construction and renovation project continues. The Board will be soliciting a construction
contract for the Martin Building renovations, the visitors’ center, and the conference center with
an estimated cost of approximately $180 million, an amount over 10 times higher than the
current A/E contract. Similar delays occurring during construction could lead to significantly
higher claims and increased costs for the Board due to the size of the construction contract and
the nature of construction work. Moving forward, we believe it is important for the Board to
ensure that specific plans are finalized before contracts are awarded to minimize the risk of
additional delays and potential increases in costs during construction.

We provided a draft of our memorandum to you for review; however, since we are not making
formal recommendations, a written response to this memorandum is not required. However,
Messrs. Hammond and Clark                   Page 5 of 5	                           March 29, 2013


your staff indicated that they concur with our observations and concerns and that actions are
being taken to minimize the risk of additional delays and potential increases in cost during
construction.

We appreciate the support the Management Division and the Financial Management Division
staff has provided us during our audit survey. This memorandum will be included on our
publicly available website and in our semiannual report to Congress. The principal contributors
to this report were Margaret An, Project Lead; Mark Kaufman, Auditor; Brian Murphy, Auditor;
and Jim Keegan, Project Manager.

If you have any questions concerning the matters discussed in this memorandum, please contact
me or Jim Keegan.

cc:	 Bill Mitchell
     David Capp
     Marie Savoy
     Keith Bates
